                                                                 Issue Date
                                                                              October 26, 2007
                                                                 Audit Report Number
                                                                              2008-FW-1001




TO:         Jerry D. Hyden
            Program Center Coordinator
            Office of Public Housing, 6IPH


FROM:       Gerald R. Kirkland
            Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Housing Authorities of the City of Konawa, City of Langston, City of Pauls
         Valley, City of Wynnewood, Town of Cheyenne, and Caddo Electric
         Cooperative Improperly Awarded Their Management Contracts and Did Not
         Manage Certain Operations or Administer Funds Properly


                                   HIGHLIGHTS

 What We Audited and Why

             In response to a U. S. Department of Housing and Urban Development (HUD)
             request, we audited the Housing Authorities of the City of Konawa (Konawa),
             City of Langston (Langston), City of Pauls Valley, City of Wynnewood, Town of
             Cheyenne, and Caddo Electric Cooperative. Our objective was to determine
             whether the housing authorities properly procured Green River Management
             (Green River) as their management agent, maintained properties, and carried out
             their financial responsibilities in accordance with HUD rules and regulations and
             their policies and procedures.

 What We Found


             The board of commissioners (commissioners) for the six housing authorities did
             not follow federal procurement requirements and their own procurement policies
             when they awarded management contracts to Green River. Also, the housing
           authorities did not use more than $199,000 in accordance with requirements and
           unnecessarily paid a commissioner of Konawa $5,858 as an insurance agent when
           they could have purchased the insurance directly from the company. Further,
           Langston did not maintain its units in good condition or manage certain aspects of
           its operations in accordance with requirements. As a result, between January
           2005 and March 2007 the housing authorities misspent $205,174. In addition, the
           housing authorities can put $84,332 to better use by reprocuring the management
           agent contracts.

What We Recommend


           Our recommendations include requiring

              •      The housing authorities to reprocure their management agent contracts;
              •      Langston to correct the physical conditions of its units and implement
                     procedures that ensure its units are maintained in a decent, safe, and
                     sanitary condition;
              •      The housing authorities to support or repay a total of $205,174; and
              •      The housing authorities to comply with HUD and state requirements.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           Generally, Green River did not believe it violated HUD requirements since it
           received HUD approval for many of the items in the 1980's. Green River
           requested that we not recommend repayment for the findings because it acted in
           good faith and disclosed the amounts in each housing authorities operating
           budget. Green River stated the housing authorities will reprocure their
           management agent contracts and cease the noted activities. We modified the
           report as necessary. Green River's response along with our evaluation is included
           in Appendix B of this report. We included Green River's response since it was
           contractually responsible for the day-to-day operations of the six housing
           authorities. Only three of six housing authority chairpersons provided written
           responses which generally agreed with Green River's response. We excluded
           enclosures and responses by individual housing authorities because they were too
           voluminous, but they are available for review upon request.




                                              2
                             TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit
Finding 1: The Six Housing Authorities Did Not Properly Procure Green River         5
           Management
Finding 2: Tenants Lived in Units That Were Not Decent, Safe, and Sanitary           9
Finding 3: Four Housing Authorities Used Funds for Ineligible and Unsupported       12
           Expenses
Finding 4: A Board Chairperson Served as the Property Insurance Agent for the Six   15
           Housing Authorities

Scope and Methodology                                                               17

Internal Controls                                                                   18

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                19
   B. Auditee Comments and OIG’s Evaluation                                         20




                                              3
                      BACKGROUND AND OBJECTIVES

The six housing authorities entered into management agreements with Green River Management
(Green River) that required Green River to comply with the housing authorities’ policies and
procedures and their annual contributions contracts with the U.S. Department of Housing and
Urban Development (HUD). While the boards of commissioners (commissioners) were
responsible for overseeing operations, Green River was responsible for administering the
day-to-day activities of the housing authorities, including supervising the housing authorities’
staff, collecting rents and other receipts; maintaining and repairing units; disbursing funds; and
preparing and maintaining budgets, records, and reports. The table below provides an overview
of the housing authorities Green River manages.

 Housing authority                      Number            Year began          Fiscal year
                                        of units          managing           2006 funding
 Housing Authority of the Caddo
 Electric Cooperative (Caddo)              34                1982              $122,057
 Housing Authority of the Town
 of Cheyenne (Cheyenne)                    22                1991                68,755
 Housing Authority of the City of
 Konawa (Konawa)                           38                1985                78,396
 Housing Authority of the City of
 Langston (Langston)                       60                1997               196,415
 Housing Authority of the City of
 Pauls Valley (Pauls Valley)               60                1985               134,698
 Housing Authority of the City of
 Wynnewood (Wynnewood)                     28                1980                78,577
 Total units and funding                  242                                  $678,898

Our objective was to determine whether the housing authorities properly procured Green River
as their management agent, maintained properties, and carried out their financial responsibilities
in accordance with HUD rules and regulations and their policies and procedures.




                                                4
                                         RESULTS OF AUDIT

Finding 1: The Six Housing Authorities Did Not Properly Procure
           Green River Management
The housing authorities did not follow HUD’s rules and regulations or their procurement policies
when they procured Green River as their management agent. Green River did not ensure its
managed housing authorities' boards followed requirements. As a result, the housing authorities
effectively sole-sourced Green River’s contracts and cannot ensure that they received the best
services at fair and reasonable cost. Collectively, the housing authorities paid Green River
$189,747 from January 2005 to March 2007 for management services.


    Housing Authorities Did Not
    Follow Procurement
    Requirements


                   While the commissioners for the housing authorities were responsible for
                   overseeing the activities of their respective housing authority, they relied on
                   Green River to supervise staff, including those performing procurement activities.
                   Green River was also responsible for complying with all requirements of the
                   housing authorities’ annual contributions contracts with HUD.

                   The housing authorities did not properly procure Green River as their management
                   agent. Rather, they sole-sourced the contracts. Our review of 12 Green River
                   contracts 1 in effect during January 2005 through March 2007 found that the contract
                   files did not contain the following required documentation:

                         •    Independent cost estimates, cost analyses, and profit negotiated as a
                              separate element;2
                         •    Justification for accepting a sole-source bid through a noncompetitive
                              proposal; 3 and
                         •    Eligibility verification of the contract awardee. 4

                   In addition, six of the advertisements did not allow 21 days for bid preparation in
                   accordance with housing authority procurement policies. Further, the authorities
                   did not advertise the procurements for the 12 contracts on a broad enough basis to
                   attract an adequate number of qualified sources. 5

1
     Two contracts for each of the six housing authorities.
2
     24 CFR [Code of Federal Regulations] 85.36(f).
3
     24 CFR 85.36 (b)(9) and (d).
4
     24 CFR 85.36(b)(8).
5
     24 CFR 85.36(d).


                                                              5
             The housing authorities only advertised in local newspapers, of which the general
             circulation ranged from 900 to 4,600. Only Green River responded to the
             advertisements. As the housing authorities’ management agent, Green River should
             have known that the advertisements were insufficient and informed the
             commissioners.

             Rather than advertising in accordance with requirements, the housing authorities
             awarded the contracts to Green River. Thus, they effectively awarded the contracts
             as sole-source contracts. While HUD allows housing authorities to sole-source
             contracts if they justify their selection, the housing authorities did not comply with
             the requirement.


HUD Prohibited Green River
from Procuring Its
Management Agent Contracts


             In 2003, HUD prohibited Cheyenne from enlisting the services of Green River to
             conduct the procurement action for management agent services. HUD stated that
             this action would promote an image of self-dealing.

             Despite this prior prohibition, Green River’s president stated that he was responsible
             for preparing the housing authorities’ bid proposal packets for prospective bidders.
             Green River was responsible for operating the housing authorities in accordance
             with applicable requirements, including procurement. Thus, Green River had an
             obligation to recuse itself from the procurement of its own contract to ensure fair and
             open competition. The selection was inappropriate, and Green River should have
             advised the commissioners to submit the procurement documentation and
             justifications to HUD for review.


Conclusion


             Because the authorities did not follow requirements, they cannot ensure that they
             received the best services at a fair and reasonable cost. The housing authorities
             should support or repay the $189,747 they paid to Green River from January 2005
             to March 2007. Further, the housing authorities should reprocure the
             management agent contracts in accordance with requirements.




                                                6
                        Housing authority                  Management fees
                                                             paid during
                                                               period
                        Langston                              $ 44,165
                        Pauls Valley                            43,248
                        Konawa                                  33,568
                        Caddo Electric Cooperative              27,971
                        Cheyenne                                22,016
                        Wynnewood                               18,779
                        Total                                 $189,747

             The housing authorities can put an estimated $84,332 in management fees to
             better use over the next 12 months by procuring the contracts in accordance with
             requirements.

Recommendations


             We recommend that the public housing program center coordinator

             1A.    Require Langston to either support or repay $44,165 from nonfederal funds
                    for the inappropriately procured contracts.

             1B.    Require Pauls Valley to either support or repay $43,248 from nonfederal
                    funds for the inappropriately procured contracts.

             1C.    Require Konawa to either support or repay $33,568 from nonfederal funds
                    for the inappropriately procured contracts.

             1D.    Require Caddo to either support or repay $27,971 from nonfederal funds for
                    the inappropriately procured contracts.

             1E.    Require Cheyenne to either support or repay $22,016 from nonfederal funds
                    for the inappropriately procured contracts.

             1F.    Require Wynnewood to either support or repay $18,779 from nonfederal
                    funds for the inappropriately procured contracts.

             1G.    Require Langston to reprocure its management agent contract in accordance
                    with procurement policies and regulations, and submit documentation and
                    justification for its selection for HUD approval, thereby putting an estimated
                    $19,629 to better use in the next 12 months.




                                              7
1H.   Require Pauls Valley to reprocure its management agent contract in
      accordance with procurement policies and regulations, and submit
      documentation and justification for its selection for HUD approval, thereby
      putting an estimated $19,221 to better use in the next 12 months.

1I.   Require Konawa to reprocure its management agent contract in accordance
      with procurement policies and regulations, and submit documentation and
      justification for its selection for HUD approval, thereby putting an estimated
      $14,919 to better use in the next 12 months.

1J.   Require Caddo to reprocure its management agent contract in accordance
      with procurement policies and regulations, and submit documentation and
      justification for its selection for HUD approval, thereby putting an estimated
      $12,432 to better use in the next 12 months.

1K.   Require Cheyenne to reprocure its management agent contract in accordance
      with procurement policies and regulations, and submit documentation and
      justification for its selection for HUD approval, thereby putting an estimated
      $9,785 to better use in the next 12 months.

1L.   Require Wynnewood to reprocure its management agent contract in
      accordance with procurement policies and regulations, and submit
      documentation and justification for its selection for HUD approval, thereby
      putting an estimated $8,346 to better use in the next 12 months.




                                8
Finding 2: Tenants Lived in Units That Were Not Decent, Safe, and
           Sanitary.
Of the 12 Langston low-income public housing units inspected, Green River did not maintain 10
of the habitable units in accordance with requirements. This occurred because the
commissioners did not ensure that Green River complied with requirements of the annual
contributions contract or its management contract to maintain the properties in good repair. As a
result, tenants lived in units that were not decent, safe, and sanitary.


    Units Were Not Decent, Safe,
    and Sanitary



                  According to its contract with Langston, Green River would maintain Langston’s
                  units in good repair. In addition, HUD requires housing authorities to maintain units
                  in decent, safe, sanitary condition and in good repair.6

                  Together with HUD and Langston staff, we inspected 12 of Langston’s 60 units
                  and found that 10 of the 11 habitable units 7 had deficiencies. The deficiencies
                  included

                      •    Missing or broken electrical outlet covers and light switch plates,
                      •    Holes in walls and roofs (due to broken or missing turbines),
                      •    Broken door and window seals,
                      •    Mold around a bathtub and growing in the walls of a laundry room, and
                      •    Water in garages due to poor drainage.

                  HUD requires all areas and aspects of the dwelling unit, including outlets and
                  walls, to be free of health and safety hazards and in good repair. Further, roofs
                  and exterior walls must be free of health and safety hazards, operable, and in good
                  repair; and the units must be free of mold. 8 The commissioners were responsible
                  for ensuring the units were properly maintained, but they relied on Green River to
                  maintain the units. As shown by the following pictures, Green River did not
                  ensure that the units met these minimum requirements.




6
      HUD’s uniform physical condition standards.
7
      One of the eleven units was fire damaged.
8
      24 CFR 5.703.


                                                    9
Missing electrical outlet cover plate   Hole in a garage wall that exposed pipes




Broken roof turbine exposing the unit    Mold around a bathtub
to water and small animals




Mold on a wall                          Rags used to fill hole in exterior wall




                                 10
Recommendations



          We recommend that the public housing program center coordinator require Langston
          to

          2A. Correct the deficiencies identified during our inspections.

          2B. Implement procedures to ensure that tenants live in decent, safe, and sanitary
              units.




                                           11
Finding 3: Four Housing Authorities Used Funds for Ineligible and
           Unsupported Expenses
In violation of the housing authorities’ annual contributions contracts, four housing authorities
used a total of $9,569 in low-rent public housing funds for ineligible and unsupported expenses.
The expenses included meals provided to commissioners, meals at social events for tenants, and
health insurance premiums for the president of Green River. In addition, a tenant commissioner
for one housing authority was overhoused. Further, the appointment terms for four
commissioners at one housing authority had expired. As the management agent, Green River
made the inappropriate expenditures for and allowed the inappropriate operations at the housing
authorities. As a result, the $9,569 was not available for operation of the authorities’ low-rent
public housing programs, eligible tenants may have been deprived of housing, and one housing
authority did not have duly appointed commissioners.



    Three Housing Authorities
    Used Low-Rent Funds to Pay
    for Meals at Meetings


                 The Konawa, Langston, and Wynnewood housing authorities paid for meals
                 provided at board of commissioners meetings. Langston had meals at its
                 meetings to encourage attendance by both the commissioners and tenants.
                 According to Green River’s president, Konawa and Wynnewood commissioners
                 decided to have a light snack or meal at the meetings since the meetings were
                 scheduled near meal times.

                 Each housing authority’s annual contributions contract prohibits the use of funds
                 to pay any compensation for the services of commissioners. Providing meals at
                 the meetings for any reason had the appearance of compensating the
                 commissioners. From June 2005 through February 2007, Langston paid $1,601
                 from low-rent funds for commissioners meeting meals. The amounts paid by
                 Konawa and Wynnewood were immaterial. However, the housing authorities
                 should discontinue the practice of paying for meals from federal funds.

    Pauls Valley Used Funds to Pay
    for Tenant Social Events Meals


                 Pauls Valley held Thanksgiving and Christmas social events for the tenants in
                 2005 and 2006. Green River allowed the use of $2,803 in low-rent funds to cater
                 meals at these social events. Requirements 9 prohibit the use of low-rent funds to
                 pay for meals at social events.

9
     Office of Management and Budget Circular A-87 attachment B(14).


                                                     12
     Housing Authorities Paid for
     Green River’s President’s
     Health Insurance


                    Wynnewood provided Green River's president's personal health insurance through
                    its employee health insurance plan. Since Green River’s president was a contractor
                    for Wynnewood, he should not be on its employee health insurance plan.
                    Wynnewood paid a portion of the president’s insurance premium. Konawa paid the
                    remainder of the premium. Neither of the housing authorities negotiated the
                    insurance as part of their contracts with Green River.10 As a result, from July 2006
                    through March 2007, Wynnewood misspent $2,519, and Konawa misspent $2,646.

     A Tenant Board Member Was
     Overhoused

                    Langston has overhoused one tenant commissioner since 1999. According to
                    HUD’s Public and Indian Housing Information Center, from May 1999 through
                    April 2007, this tenant commissioner lived in a four-bedroom house while three or
                    fewer people resided in the unit.

                    On April 24, 2007, shortly after we informed Green River that we wanted to inspect
                    the unit, Langston transferred the tenant from the four-bedroom unit to a
                    two-bedroom unit; she only qualified for a one-bedroom unit.11

                    Green River had managed Langston since 1997 and, according to its management
                    agreement, was responsible for verifying and certifying eligibility of tenants and
                    recertifying occupants. Thus, Green River should have known that the
                    commissioner was overhoused. As a result of the overhousing, other prospective
                    tenants waiting for a unit may have been deprived of housing for an extended period.


      Board Members’ Appointment
      Terms Had Expired


                    The City of Langston’s (City) mayor appointed the Langston commissioners in
                    1999, 2000, and 2001. The appointments were for three-year terms. Langston had
                    four commissioners with expired terms.



10
       As stated in finding 1, Green River’s contracts were effectively sole-sourced.
11
       Langston had an unoccupied one-bedroom unit at the time of transfer.


                                                            13
         Green River’s president informed us that several commissioners had petitioned the
         City for reappointments. However, the City had not reappointed the commissioners
         or appointed successors. Green River’s president stated that he wrote letters to the
         City concerning the commissioners’ appointments, but he could not provide copies
         of the letters. Langston should have current appointments for its commissioners.


Conclusion


         Green River did not ensure that the housing authorities expended funds in
         accordance with requirements. It allowed the use of $9,569 in low-rent public
         housing funds for ineligible and unsupported expenses such as meals at
         commissioners meetings and social events and health insurance payments for Green
         River’s president. Also, a tenant commissioner had been overhoused since 1999,
         and the terms for commissioners at one housing authority had expired.

Recommendations


         We recommend the public housing program center coordinator require

         3A.    Langston to discontinue paying for meals at commissioners meetings from
                federal funds, and repay $1,601 from nonfederal funds.

         3B.    Konawa to discontinue paying for meals provided at commissioners
                meetings.

         3C.    Wynnewood to discontinue paying for meals provided at commissioners
                meetings.

         3D.    Pauls Valley to repay $2,803 from nonfederal funds for meals provided at
                tenant social events.

         3E.    Wynnewood to repay $2,519 from nonfederal funds for Green River’s
                president’s personal health insurance premium.

         3F.    Konawa to repay $2,646 from nonfederal funds for Green River’s
                president’s personal health insurance premium.

         3G.    Langston to transfer the tenant commissioner to the authorized size unit.

         3H.    Langston to actively petition the City of Langston to appoint commissioners
                in accordance with Oklahoma state law and provide evidence of its efforts.




                                          14
Finding 4: A Board Chairperson Served as the Property Insurance
           Agent for the Six Housing Authorities
The chairperson of Konawa’s board of commissioners served as the property insurance agent for the
six housing authorities managed by Green River. The housing authorities paid the chairperson a
total of $5,858 as compensation for the services from July 2006 through February 2007. The
housing authorities could have purchased their policies directly from the insurance company,
thereby avoiding the additional costs. Because Green River did not ensure that the housing
authorities complied with their annual contributions contracts, the housing authorities unnecessarily
paid the Konawa chairperson $5,858.



     Conflict of Interest


                     Konawa’s chairperson, who had served as a commissioner since 1978, was the
                     property insurance agent of record for the six housing authorities. Konawa’s annual
                     contributions contract prohibits commissioners from receiving financial gain from
                     the authority. Further, Konawa’s annual contributions contract states that a present
                     commissioner may not enter into an arrangement in connection with the housing
                     authority during the member’s tenure and one year thereafter. 12 Despite these
                     prohibitions, Green River allowed the business relationship to continue. As a result,
                     Konawa inappropriately paid $889 to its chairperson.

                     All of the housing authorities purchased property insurance through the same
                     HUD-approved insurance company. The housing authorities could have
                     purchased the insurance directly from the company without going through an
                     insurance agent. However, Green River chose Konawa’s chairperson as the
                     insurance agent on the housing authorities' behalf. If Green River had purchased
                     the insurance directly from the company, it would have avoided the $5,858 in
                     unnecessary fees paid to the Konawa chairperson.




12
       Annual contributions contract, part A, section 19.


                                                            15
Recommendations


          We recommend the public housing program center coordinator require

          4A.     Konawa to repay $889 from nonfederal funds for funds paid to the
                  chairperson and acquire its property insurance directly from an insurance
                  company.

          4B.     Langston to support or repay $1,754 from nonfederal funds for funds paid
                  to the Konawa chairperson for unnecessary services and acquire its
                  property insurance directly from an insurance company.

          4C.     Wynnewood to support or repay $359 from nonfederal funds for funds
                  paid to the Konawa chairperson for unnecessary services and acquire its
                  property insurance directly from an insurance company.

          4D.     Pauls Valley to support or repay $837 from nonfederal funds for funds
                  paid to the Konawa chairperson for unnecessary services and acquire its
                  property insurance directly from an insurance company.

          4E.     Caddo to support or repay $1,039 from nonfederal funds for funds paid to
                  the Konawa chairperson for unnecessary services and acquire its property
                  insurance directly from an insurance company.

          4F.     Cheyenne to support or repay $980 from nonfederal funds for funds paid
                  to the Konawa chairperson for unnecessary services and acquire its
                  property insurance directly from an insurance company.




                                           16
                          SCOPE AND METHODOLOGY

Our audit period covered January 2005 through March 2007. We expanded the audit period as
appropriate. To accomplish our objective, we

•   Obtained and reviewed applicable HUD requirements and files on the housing authorities.
•   Interviewed the staff of HUD’s Office of Public Housing, Green River, the six managed housing
    authorities, and the housing authorities’ insurance company;
•   Inspected a representative, nonstatistically selected sample of 37 units at six housing authorities;
•   Reviewed financial and procurement data from each of Green River’s managed housing
    authorities; and
•   Reviewed and gained an understanding of HUD’s, Green River’s managed housing authorities’,
    and Oklahoma state regulations and policies, as applicable.

We estimated that HUD can put $84,332 to better use over the next 12 months by requiring the
housing authorities to reprocure their management agent contracts (recommendations 1G through
1L). We estimated the amount by calculating the average amount the housing authorities paid
Green River over the last 27 months and multiplying the result by 12 ($189,747/27 months =
$7,027.67/per month*12 months = $84,332).

We performed fieldwork at Green River’s office in Ada, Oklahoma, from March through August
2007. We performed our review in accordance with generally accepted government auditing
standards.




                                                  17
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •   Procurement policies,
              •   Maintenance of units,
              •   Occupancy standards, and
              •   Cash management.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

              •   The housing authorities did not follow procurement policies when procuring for
                  a management agent; and
              •   Langston’s units were not decent, safe, sanitary, and in good repair.




                                               18
                                        APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS
               AND FUNDS TO BE PUT TO BETTER USE

         Recommendation             Ineligible 1/        Unsupported 2/       Funds to be put
             number                                                           to better use 3/
                 1A                                            $ 44,165
                 1B                                              43,248
                 1C                                              33,568
                 1D                                              27,971
                 1E                                              22,016
                 1F                                              18,779
                 1G                                                                 $ 19,629
                 1H                                                                   19,221
                 1I                                                                   14,919
                 1J                                                                   12,432
                 1K                                                                    9,785
                 1L                                                                    8,346
                 3A                          $1,601
                 3D                           2,803
                 3E                           2,519
                 3F                           2,646
                 4A                             889
                 4B                                                1,754
                 4C                                                  359
                 4D                                                  837
                 4E                                                1,039
                 4F                        _______                   980              _______
                Totals                     $ 10,458            $ 194,716              $ 84,332

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that the auditor
     believes are not allowable by law; contract; or federal, state, or local policies or regulations.
2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or activity when
     we cannot determine eligibility at the time of audit. Unsupported costs require a decision by HUD program
     officials. This decision, in addition to obtaining supporting documentation, might involve a legal
     interpretation or clarification of departmental policies and procedures.
3/   Recommendations that funds be put to better use are estimates of amounts that could be used more
     efficiently if an Office of Inspector General (OIG) recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures noted in preaward
     reviews, and any other savings which are specifically identified. In this instance, if HUD implements our
     recommendations, it will put $84,332 to better use.




                                                    19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         20
Comment 2




Comment 3



Comment 4




            21
Comment 5




            22
Comment 6




            23
Comment 7




Comment 8




            24
Comment 9




Comment 10




             25
Comment 11




             26
Comment 12




Comment 13




             27
28
Comment 14




             29
30
Comment 15




             31
Comment 16




             32
                            OIG Evaluation of Auditee Comments

Comment 1: Green River was responsible for complying with the housing authorities' annual
contributions contracts. Green River agreed it did not have the required procurement
documentation. Green River provided no supporting documentation that the commissioners
discussed the contracts or that it sent the contracts to HUD initially or since the 1980s. Green
River should have informed the commissioners of their responsibilities and of the requirements.

Comment 2: Without cost estimates, competitive procurement, commissioners that are aware of
their responsibilities, evidence that the commissioners sent the contracts to HUD, or HUD
approval of the contracts, Green River has no evidence to support its statements.

Comment 3: The purpose of the requirement is to ensure that contractors are eligible through
independent verification.

Comment 4: We maintain our position that the housing authorities did not advertise on a
sufficiently broad enough basis as evidenced by only Green River bidding. It could not provide
any documentation of the discussions it had with commissioners.

Comment 5: Green River stated HUD informed Cheyenne that Green River should recuse itself
from the procurement of management agent services. According to Green River, Cheyenne's
chairman worked directly with HUD concerning the procurement. Green River relied upon
conversations with this chairman to manage other housing authorities. Green River should
ensure that the housing authorities it manages follow HUD requirements. Obviously, Green
River should not be involved with the procurement of its contract. However, as management
agent, Green River should ensure that commissioners follow HUD requirements. With respect to
Cheyenne, HUD did not review the entire procurement process. Cheyenne's management agent
procurement file did not contain the necessary elements as stated in the report. Further, Green
River should not apply guidance received verbally from a commissioner at one housing authority
as support for another housing authority's actions.

Comment 6: The housing authorities' agreement to reprocure their management agent contracts
is appropriate. However, the housing authorities will need to justify to HUD that they paid a
reasonable price for the fees it paid since it improperly procured the contracts.

Comment 7: We commend the Housing Authority of the City of Langston for correcting the
deficiencies.

Comment 8: The various housing authorities' discontinuing the practice of using housing
authority funds for these activities is appropriate.

Comment 9: Public and Indian Housing Notice 2001-3 states eligible resident participation
activities include consultation and outreach for public housing residents that support active
interaction between the housing authority and the residents. Green River did not include
documentation of how Pauls Valley used the funds. Pauls Valley financial documentation



                                               33
showed two entries in other income with notes stating Thanksgiving dinner and Christmas dinner
totaling $195. We deducted this amount from the total in the report.

Comment 10: We excluded the section concerning per diem payments to commissioners from
our report based upon review of the response. While the per diem payments were not clearly
ineligible, we maintain the payments were not reasonable under the circumstances. Such
payments if provided should be reviewed by the commissioners yearly to determine need and
reasonableness. We agree with Wynnewood's position of discontinuing per diem payments to
Wynnewood's commissioners.

Comment 11: Despite what occurred in the past, Green River needs to negotiate its president's
personal health insurance cost through its management agent contract. Green River's
management agent contract with Wynnewood did not include a personal health insurance clause.
As for the management agent contract for Konawa, Konawa did not procure the contract within
applicable HUD requirements as stated in the report.

Comment 12: Green River did not provide documentation to support Langston's efforts in
transferring the tenant commissioner prior to March 2007. The tenant commissioner continues to
be overhoused.

Comment 13: Langston's current commissioners' terms expired in 2002, 2003, and 2004. The
only evidence of Green River petitioning the City of Langston in writing was in July 2007; three
to five years after the members' terms expired. Green River should ensure that Langston's
commissioners have current appointments.

Comment 14: The conflict of interest resides in Konawa paying the insurance agent/board
chairperson, not in obtaining the actual insurance coverage 10 years earlier. Green River should
expend existing housing authorities' funds based upon the facts and requirements currently in
effect. As management agent, Green River should have kept abreast of current facts and
requirements and informed commissioners of changes that impacted the expending of current
funds. Further, the annual contributions contract between HUD and each housing authority
specifies the mandatory and optional insurance coverage for housing authorities. Finally, Green
River did not provide evidence of services provided, negotiations, nor contracts between the
insurance agent and the housing authorities.

Comment 15: We omitted from the final report.

Comment 16: Implementation of these actions will improve the housing authorities' operations.




                                               34
